In The
SUPREME COURT OF THE UNITED STATES
Case Number 21-
CERTIFICATE OF COMPLIANCE
LAWRENCE JOEY SMITH
Petitioner
v.
STATE OF FLORIDA
Respondent
As required by Supreme Court Rule 33.1(h), I certify that the
petition for writ of certiorari contains 4526 words, excluding the parts of
the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing are true and

correct.
Executed on June

 
 

Florida Bar Number 714216

Florida Board Certified Criminal Trial Lawyer
Florida Board Certified Criminal Appellate Lawyer
1521 Highland Drive

Tallahassee, Florida 32317

(850)597-8015 (office)

(850)597-7157 (fax)
Robert@attorneyrobertberry.com
Attyrobertberry@aol.com

Counsel for Petitioner
